WAIVER

SUPREME COURT OF THE UNITED STATES

No. 21-336

Shiyang Huang Brian Spector et al.
(Petitioner) Vv. (Respondent)

I DO NOT INTEND TO FILE A RESPONSE to the petition for a writ of certiorari unless one is requested by
the Court.

Please check the appropriate box:
© _ Iam filing this waiver on behalf of all respondents.
© Tonly represent some respondents. I am filing this waiver on behalf of the following respondent(s):

Theodore H. Frank, David R. Watkins

Please check the appropriate box:

© _ lama member of the Bar of the Supreme Court of the United States. (Filing Instructions: File a
signed Waiver in the Supreme Court Electronic Filing System. ‘The system will prompt you to enter
your appearance first.)

oO Tam not presently a member of the Bar of this Court. Should a response be requested, the response
will be filed by a Bar member. (Filing Instructions: Mail the original signed form to: Supreme Court,
Atin: Clerk's Office, 1 First et, NE, Washington, D.C. 20543).

   

Signature:

Date: 09/23/2021

(Type or print) Name TylerR. Green

© mr. © Ms. © Mrs. O Miss
Fim Consovoy McCarthy PLLC
Address 222 8. Main Street, 5th Floor
City & State Salt Lake City, UT Zip 84101
Phone 703-243-9423 Email tyler@ consovoymecarthy.com

A copy of this form must be sent to petitioner’s counsel or to petitioner if pro se. Please indicate below the
name(s) of the recipient(s) of a copy of this form. No additional certificate of service or cover letter is required.

Shiyang Huang
ce:
